<html>
<title> - WATER RESOURCES DEVELOPMENT ACT: LEGISLATIVE AND POLICY PROPOSALS TO BENEFIT THE ECONOMY, CREATE JOBS, PROTECT PUBLIC SAFETY AND MAINTAIN AMERICA'S WATER RESOURCES INFRASTRUCTURE</title>
<body><pre>[Senate Hearing 111-1249]
[From the U.S. Government Publishing Office]




                                                       S. Hrg. 111-1249

 WATER RESOURCES DEVELOPMENT ACT: LEGISLATIVE AND POLICY PROPOSALS TO 
 BENEFIT THE ECONOMY, CREATE JOBS, PROTECT PUBLIC SAFETY AND MAINTAIN 
                AMERICA'S WATER RESOURCES INFRASTRUCTURE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 17, 2010

                               __________

  Printed for the use of the Committee on Environment and Public Works

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





         Available via the World Wide Web: http://www.fdsys.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

24-700 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                 Ruth Van Mark, Minority Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           NOVEMBER 17, 2010
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     2
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     4
Vitter, Hon. David, U.S. Senator from the State of Louisiana.....     6

                               WITNESSES

Woodruff, Matt, Director, Government Affairs, Kirby Corporation..     8
    Prepared statement...........................................    10
    Responses to additional questions from Senator Carper........    43
    Response to an additional question from Senator Inhofe.......    44
Weakley, James H.I., President, Lake Carriers' Association.......    46
    Prepared statement...........................................    48
    Response to an additional question from Senator Boxer........    56
    Responses to additional questions from:
        Senator Carper...........................................    57
        Senator Inhofe...........................................    57
Verigin, Stephen W., P.E, G.E., Vice President, GEI Consultants, 
  Inc., and Member, National Committee on Levee Safety...........    59
    Prepared statement...........................................    62
    Responses to additional questions from:
        Senator Boxer 



        Senator Carper...........................................   184
        Senator Cardin...........................................   188
        Senator Inhofe...........................................   192
Roth, Lawrence, Senior Vice President, ARCADIS U.S., Inc.........   217
    Prepared statement...........................................   219
    Response to an additional question from Senator Boxer........   230
    Responses to additional questions from:
        Senator Carper...........................................   231
        Senator Cardin...........................................   232
        Senator Whitehouse.......................................   234
    Response to an additional question from Senator Inhofe.......   238

 
 WATER RESOURCES DEVELOPMENT ACT: LEGISLATIVE AND POLICY PROPOSALS TO 
 BENEFIT THE ECONOMY, CREATE JOBS, PROTECT PUBLIC SAFETY AND MAINTAIN 
                AMERICA'S WATER RESOURCES INFRASTRUCTURE

                              ----------                              


                      WEDNESDAY, NOVEMBER 17, 2010

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full Committee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(Chairman of the full Committee) presiding.
    Present: Senators Boxer, Inhofe, Cardin, Vitter, and 
Merkley.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Good morning, everybody. I wanted to start 
this exactly on the nose--hello, Senator Inhofe--because we 
have a couple of votes starting at 11. So we want to get 
through this. I think we can, because we only have one 
distinguished panel with us, very important panel.
    Today's hearing will examine proposals for maintaining our 
ports, keeping our waterways open for commerce, protecting our 
citizens from storms and floods, and restoring our most 
precious ecosystems. This is the second hearing held by the EPW 
Committee as we continue to develop the next Water Resources 
Development Act. The projects included in WRDA are vitally 
important to keeping our communities safe and our economy 
moving forward.
    Prior to 2007 WRDA had not been passed in 7 years. But we 
built overwhelming bipartisan support, Senator Inhofe and I, in 
the Senate to enact the Water Resources Development Act of 2007 
over President Bush's veto. That bill allowed many critical 
projects across the country to proceed. And if we are going to 
grow America, we have to make sure we keep up with the 
infrastructure. That is the bottom line.
    I look forward to working with Senator Inhofe again and 
colleagues on both sides of this aisle to develop the next 
Water Resources Development Act. The projects, the policies, 
the programs authorized in WRDA are essential components of 
creating jobs and keeping our economy growing. For example, 
today we will hear about proposals to increase investment in 
our Nation's ports and inland waterway navigation channels. 
Ensuring our port and inland waterway infrastructure is 
adequately maintained is critical to the Nation's economic 
success. According to the Army Corps of Engineers in 2008 U.S. 
ports handled over $1.6 trillion in foreign commerce, and U.S. 
ports and waterways moved nearly 2.5 billion tons of cargo.
    Maintaining our ports is especially important in my home 
State. The Port of Los Angeles, Port of Long Beach, Port of 
Oakland are among the top 10 ports in the Nation by the amount 
of container cargo shipped. These and many other important 
California ports support economic activity representing 
hundreds of thousands of jobs and tens of billions of dollars 
across this entire Nation because those goods are transported 
to the port and then they go from the port across the entire 
Nation.
    Past WRDA bills have authorized projects to build and 
maintain ports across the country. Now we must ensure we invest 
in these projects so our ports are properly maintained and 
continue to support the billions of dollars of commerce and 
thousands of jobs that depend on them all across the country. A 
bipartisan group of Senators has introduced legislation to 
ensure that revenues collected for harbor maintenance 
activities are invested in our ports. I support these efforts, 
and I believe increasing investment in harbor maintenance 
should be a focus of our next WRDA bill.
    Our witnesses today will also discuss steps we can take to 
improve the safety of the Nation's thousands of miles of 
levees. How critical is that? As we write the next WRDA bill, 
improving the Nation's levees will be one of our top 
priorities. In California, many communities such as Sacramento 
face considerable flood risk and they rely on the levees for 
protection. We know what happens when levees fail. We have seen 
it, we will never forget it, and we want to avoid that.
    WRDA is needed to allow critical enhancements to the levees 
surrounding Sacramento's Natomas Basin to move forward. In WRDA 
2007 we established a national Committee on Levee Safety. We 
directed that committee to develop recommendations for a 
national levee safety program. The Committee's recommendations 
called for comprehensive and consistent national leadership on 
levee safety, strong levee safety programs in all of our 
States, and alignment of existing Federal programs. These are 
important goals that the next WRDA bill can help to achieve.
    Investment in the Nation's WRDA resources, creating jobs 
and providing benefits to America's families and businesses 
every day, is crucial. Moving forward on WRDA would provide the 
opportunity to advance important projects and programs, create 
jobs, and promote our long-term prosperity, not to mention our 
competitiveness as a Nation in a global work marketplace.
    So I would like to call on Senator Inhofe now.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman. It surprises a 
lot of people when they hear me say it is good to be back with 
you, but it is. It upsets people no end when they find out that 
the person who is ranked as the most conservative member of the 
U.S. Senate really likes the most liberal member of the U.S. 
Senate, and we have a lot of things in common.
    I used to say that while I am ranked as the most 
conservative, there are some areas where I am a big spender. 
One is national defense, one is infrastructure, and one is 
unfunded mandates. Well, infrastructure and unfunded mandates 
are a product of this, and we are in agreement on that.
    So we are anxious together, I think every member of this 
Committee, the Republicans and the Democrats working together, 
to have another WRDA bill. As the Chairman mentioned, when we 
had our 2007 bill it had been just years since we had had one 
before, and we need to get it done this year. I don't think we 
will be able to do it this month or this year, but I think we 
will when we come back into session. That is my personal 
feeling.
    A lot of people are not aware of the fact, we are going to 
be dealing, of course, with some of the harbor things, the 
inland waterways, that Oklahoma, my State of Oklahoma, is 
probably the most inland port in America. People are not aware 
of that. They think of Maryland and other States as having all 
these ports, or California. But the McClellan-Kerr waterway 
system is kind of interesting because it was started by my 
father-in-law with Governor Bob Kerr. I was there at the 
breaking of all this, and when President Johnson came in, I was 
there at that time. A lot of people have said, well, that is a 
boondoggle. Well, maybe they called it that, but it is sure 
working today. We have just thousands of people working out 
there.
    One of the things I think should be changed is, when we 
have this harbor fund, this trust fund, they have taken a 
portion of that and put it to debt reduction. To me, this is 
kind of a moral issue. I said the same thing back in 1998, when 
President Clinton took out of the Highway Trust Fund about, I 
can't remember the exact amount, $8 billion or $9 billion. It 
took us 10 years to get that back, but we did. And that 
overcame a crisis that we are facing. So I think it is exactly 
the same thing, what we are facing here.
    So on the issues that are coming up, I am very anxious to 
get started with this thing. We will be working hand in hand, 
and hopefully it will get done.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    Thank you, Madam Chairman, for holding this hearing, and 
thank you to all the witnesses for joining us this morning. 
We've been trying to hold this hearing for several months now, 
and I'm happy it's finally happening.
    The Chairman and I have worked together to develop a Water 
Resources Development Act (WRDA) of 2010, but it looks like we 
are not going to have enough time to finish it this Congress. I 
hope to continue working in a bipartisan fashion to ensure we 
pass a WRDA next year.
    At our first WRDA hearing in May we heard from witnesses 
who spoke of the short- and long-term economic benefits of 
investments in our water resources infrastructure. Today's 
hearing will focus on legislative and policy recommendations 
for the next WRDA, including levee safety, investment in our 
inland waterways system, and maintenance of our ports and 
harbors.
    As anyone who has heard me speak before about 
infrastructure well knows, I strongly support Federal 
investment in public infrastructure. In fact I believe it is 
one of two areas where the Federal Government should spend 
money, the other being national defense, of course. We have 
significant water resources needs across the country, but we 
aren't dedicating the funds necessary to address them.
    Let me be clear, though, that I am not advocating for 
simply increasing overall spending. Instead, I support making 
infrastructure spending a greater percentage of overall 
spending. I look forward to discussing how we can do that with 
the witnesses here today.
    WRDA 2007 included establishment of a committee on levee 
safety, to be composed of Federal, State, local, tribal, and 
private sector experts and charged with making recommendations 
on how best to structure a national levee safety program. In 
January 2009 that committee made public a report with a number 
of recommendations that I believe deserve further discussion. 
It is important that we get a program started soon, but also 
important to make sure we don't rush through the numerous and 
complex issues involved and that a national levee safety 
program does not set unrealistic expectations for levels of 
Federal funding.
    Moving to the topic of the inland waterways system, I know 
I've used this example before, but it bears repeating: the 
McClellan-Kerr Arkansas River Navigation System is very 
important to the national economy and to the economy of my home 
State. Currently the Tulsa Port of Catoosa alone is the 
location of more than 60 companies employing nearly 3,000 
employees. We must figure out a way to continue investing in 
this important aspect of our economy.
    The Inland Waterways Users Board, working with the Corps of 
Engineers, undertook a thorough review of the current process 
used for investing in our system. The Board developed a 
comprehensive set of recommendations aimed at not just 
increasing our investments but also at making any level of 
investment more efficient and effective. Many of these 
recommendations may be appropriate for inclusion in the next 
WRDA.
    Maintenance of our ports and harbors is unfortunately 
another underfunded activity. I can understand the frustration 
on this issue since a specific tax is collected to be used to 
fund these activities. Instead, approximately half of yearly 
revenues are spent as intended while the rest is counted as 
offsetting the deficit. That is not fair or honest, especially 
when so much maintenance is left unfunded.
    I do have a concern with the legislation introduced to 
address this issue, however, and that is that it likely would 
lead to decreased funding for other activities of the Corps 
that are already underfunded as well. If we can find a way to 
address the needs of our ports without negatively impacting our 
other water resources needs, I would be very supportive.
    Before I finish, I want to acknowledge all the work done so 
far. I know that a lot of people have put a great deal of time 
and effort into studying these three issues and developing 
recommendations. I want to say thank you to everyone involved. 
We still have some work to do, but I look forward to continuing 
to work together with my colleagues, the witnesses, and their 
colleagues to address these issues during development of the 
next Water Resources Development Act.

    Senator Boxer. Well, I think it is going to get done. And 
one of the reasons will be, certainly, the support of our 
colleagues. One of them is here, Senator Cardin.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Let me thank our Chairman and our Ranking 
Member because I do believe the Water Resources Development Act 
is one of the most important bills that we can get done. I hope 
we can get this done early next year, because I think it is 
very important to get the predictability on water 
infrastructure projects. We will be talking today about levees 
and dams. We also will be talking about the Harbor Maintenance 
Trust Fund and Inland Waterway Trust Fund. I think some of the 
issues that my Chairman and Ranking Member have raised are very 
important for us to deal with.
    Let me just point out, I think this bill is critically 
important for jobs in our community. It is about jobs, it is 
about creating more opportunities for Americans to work. In my 
own State of Maryland, I am going to be talking a great deal 
about the dredging projects and the impact it has on Maryland's 
economy. I can talk about the Chesapeake Bay, and I can also 
talk about the ports that are located in Maryland. The 
Chesapeake Bay has a considerable amount of erosion and 
sediment that adds to the needs for the dredging funding to be 
predictable and to deal with dredging our waterways.
    The Port of Baltimore has 126 miles of shipping channel. 
That is a real challenge. The Port of Baltimore is one of our 
most busy ports in our Nation. It ranks first in handling 
trucks, roll-on, roll-off cargo such as automobiles, trucking 
trailers, and freight cars. It ranks first in gypsum, sugar, 
and iron ore. It is the country's second largest automobile 
exporter and nationally ranked 12th in total value of foreign 
cargo handled. So dredging of our shipping lanes is critically 
important to the economic strength of our entire region and our 
Nation in regards to the Port of Baltimore.
    But what you may not be aware of is that we have other 
ports that are equally important to our regional economy. The 
Port of Salisbury, critically important for the energy of the 
DelMarVa peninsula, critically important for the farming 
interests in the DelMarVa peninsula.
    Then in regard to levees, Madam Chair, let me just point 
out, we have six federally funded levees that are in Maryland 
that are critically important for flood control. In western 
Maryland they are particularly vulnerable. And the safety of 
our levees is important. I want to make sure that we have 
adequately funded maintenance and repair of our levees, which I 
think today is--all surveys show that we are not doing enough 
in order to do that.
    In the interest of time, Madam Chair, I am going to ask 
that my entire statement be made a part of the record so we 
have maximum opportunity to hear from our witnesses.
    [The prepared statement of Senator Cardin follows:]

                 Statement of Hon. Benjamin L. Cardin, 
                U.S. Senator from the State of Maryland

    Madam Chairman, thank you for holding this hearing today. 
The Water Resource Development Act is one of the most important 
public works laws that we consider. I am happy to have the 
opportunity today to address some of the critical economic 
issues associated with our water resources infrastructure.
    Today's witnesses will discuss some of the specific funding 
mechanisms used to support our water resources infrastructure. 
We'll hear about levees and locks and dams. We'll hear about 
the Harbor Maintenance Trust Fund and the Inland Waterways 
Trust Fund.
    While the specific points our witnesses will be making will 
vary, there will be a common theme throughout today's hearing, 
and that is jobs. The economic importance of a robust water 
resources infrastructure for America is vital to creating and 
maintaining jobs all across this country.
    Maryland has a geography and topography which makes the 
Chesapeake Bay particularly susceptible to the adverse effects 
of erosion. This erosion contributes to 5 millions of cubic 
yards of sediment deposited annually into the bay, adversely 
affecting water quality, destroying valuable wetlands and 
habitat, and clogging navigation channels.
    Every year the Corps clears tons of eroded sediment from 
the Federal navigation channels that lead into and out of the 
Port of Baltimore. Keeping this port open and the channels 
dredged is essential not just for Maryland, but for the Nation.
    The Port of Baltimore is an enormous economic engine for 
Maryland with national significance. There are 126 miles of 
shipping channels leading to the Port of Baltimore. In 2008 
approximately 47.5 million tons of cargo, including 33 million 
tons of foreign cargo valued at $45.3 billion, and 
approximately 14.5 million tons of domestic waterborne cargo 
moved through the Port of Baltimore.
    Among the 360 U.S. ports, Baltimore is ranked No. 1 for 
handling:
     Trucks
     Roll on/roll off cargo (i.e. automobiles, trucking 
trailers, and freight cars),
     Imported forest products,
     Gypsum, sugar, and iron ore, and
     it is the country's second largest automobile exporter 
and
     is nationally ranked 12th in total value of foreign cargo 
handled.
    The Maryland Port Administration estimates that the Port 
generates 50,700 jobs in Maryland with $3.7 billion in wages 
and salaries. Additionally, there are approximately 68,300 
related and indirect jobs associated with Port activities.
    At the local level, Maryland puts the Bay's dredge material 
to good use on coastal habitat, beach, and island restoration 
projects.
    The Port of Baltimore is one of America's greatest ports, 
supporting an incredible array of jobs. But it is not the only 
port in a State that has more miles of shoreline than the 
entire west coast of America.
    Salisbury is a relatively small city and an unexpected 
place for Maryland's second busiest port. Located 30 miles 
inland from the Chesapeake Bay, the port of Salisbury is vital 
to the entire DelMarVa peninsula. Fuel oil, diesel, and other 
petroleum products are delivered daily in some of the hundreds 
of barges that are the backbone of the port.
    Farmers need the port to move corn and soybeans to market. 
Shale, sand, and aggregates move up and down the Wicomico 
River, supporting thousands of jobs in the construction 
industry.
    Maryland is home to scores of other ports, many of them 
tiny operations that support our independent watermen--the men 
and women who make their living crabbing or oystering the 
Chesapeake's waters.
    Before I close, I want to mention one other issue.
    There are six major federally constructed levee systems in 
Maryland consisting of miles of earthen levees and structural 
floodwalls. In the past the Potomac River presented a potential 
flood threat to the residents of Cumberland, in western 
Maryland. But the Cumberland Flood Control Project has done an 
outstanding job of lessening the threat of future flooding. 
This levee system protects 400 businesses and 178 households. 
And it saves all of them the extra expense of purchasing 
Federal flood insurance.
    As the economic recovery continues to struggle to take 
hold, the last thing these businesses and families need is to 
be hit with a big increase in insurance premiums.
    This morning we will be hearing about some funding issues 
and the continuing challenges that we face in making the 
necessary investments in our water infrastructure. I want to 
underscore that each of these issues relates back to our No. 1 
priority: creating and sustaining jobs.
    I look forward to hearing from today's witnesses and 
working with my colleagues on the latest reauthorization of 
WRDA.

    Senator Boxer. Thank you so much.
    I am pleased to call on Senator Vitter.

            OPENING STATEMENT OF HON. DAVID VITTER, 
            U.S. SENATOR FROM THE STATE OF LOUISIANA

    Senator Vitter. Thank you, Madam Chair. And thanks to all 
the witnesses for being here. I certainly agree, this is an 
important discussion and an important topic and goal for the 
Nation, certainly including my State of Louisiana, which is 
full of vital waterways for commerce.
    I, too, want to focus on some of the key issues starting 
with the Harbor Maintenance Trust Fund. We have faced this 
perennial problem that while trust fund revenue is healthy and 
the trust fund balance in theory is growing, Administration 
after Administration--whether it is Republican or Democrat--
basically won't touch much of that money as really a game to 
mask the budget deficit and artificially lower the budget 
deficit by not using that money for the purposes that it is 
dedicated to.
    So I am a leading co-author and a very strong advocate of 
3213 to change that in a way generally similar to the reforms 
Congress has brought in the past to other trust funds, like the 
Transportation Trust Fund.
    Also, as we all know, there is a very important proposal 
put together by industry, working hand in glove with the Corps 
of Engineers on the Inland Waterways Trust Fund, so that we 
actually move forward and complete these projects, and they 
don't languish forever with costs rising year by year. That is 
a very serious proposal. I am just digesting it now, but I hope 
we all look very hard at that.
    There are numerous dredging issues around the country that 
aren't adequately dealt with. Perhaps the most serious in my 
neck of the woods is Mississippi River dredging. A huge part of 
our Nation's commerce is dependent on that. And yet constantly 
we are slowing down traffic, we are actually slowing down or 
short-waiting commerce because of inadequate dredging in the 
Southwest Pass and other key parts of the lower Mississippi 
River. That is all related to this discussion.
    And then certainly to pick up on something Senator Cardin 
mentioned, levee safety. Nobody has learned more about levee 
safety than folks in Louisiana for obvious reasons. But it is a 
national issue. And the National Levee Safety Program, 5 years 
after Hurricane Katrina, after the National Committee on Levee 
Safety published its report in 2009, 20 recommendations, none 
of that has been implemented yet. So I think that is an 
important national concern that we also need to address.
    So I look forward to moving forward on all of these and 
other important fronts.
    Thank you, Madam Chair.
    Senator Boxer. Thank you so very much, Senator.
    We are now going to get through this in an hour. We have 
four very important witnesses. Mr. Matt Woodruff is the 
Director, Government Affairs, at Kirby Corporation, on behalf 
of the Inland Waterways Users Board. Mr. Jim Weakley, President 
of the Lake Carriers' Association.
    Mr. Steve Verigin, he is Vice President, GEI Consultants, 
Inc., and member, National Committee on Levee Safety. I wanted 
to mention, based in Sacramento. So I wanted to personally 
welcome you here. He also serves as a member of the National 
Committee on Levee Safety. And he will be testifying today 
about the committee's recommendations. He has three decades of 
experience in the management of water resources and previously 
served as the Deputy Director of the California Department of 
Water Resources. So water is his middle name.
    And we have Mr. Lawrence Roth, who is also based in 
Sacramento, Senior Vice President of ARCADIS U.S., Inc., 
testifying in behalf of the American Society of Civil 
Engineers, where he previously served as the Executive Vice 
President for nearly a decade. Mr. Roth has had an extensive 
career as a professional engineer working on a variety of water 
resources issues.
    So our panel is just terrific, and we are going to listen 
to you and ask you some questions. We will start with Mr. 
Woodruff, Director, Government Affairs, Kirby Corporation, on 
behalf of the Inland Waters Users Board.
    Welcome, sir.

             STATEMENT OF MATT WOODRUFF, DIRECTOR, 
             GOVERNMENT AFFAIRS, KIRBY CORPORATION

    Mr. Woodruff. Thank you.
    Inland Waterway Users are not asking for a list of new 
project authorizations in WRDA. What we want is a new process 
that will help us build our projects quicker and more 
economically. At a time when everyone is focused on the economy 
and jobs, inland waterways are a great value for our Nation, 
essential to our continued competitiveness.
    As mentioned, I am a member of the Inland Waterway Users 
Board and was a part of the group of Users Board members who 
worked for about a year and a half with the Corps of Engineers 
to develop a comprehensive strategy to recapitalize our inland 
waterway system. This Committee knows that our waterways safely 
and efficiently move vast quantities of the building blocks 
upon which this Nation's economy is built: grain, steel, coal, 
petroleum, chemicals, fertilizers. They allow our farmers and 
our factories in the heartland to reach markets across the 
world.
    On November 3rd President Obama told the Nation, ``The most 
important contest we face is not the contest between Democrats 
and Republicans. In this century, the most important 
competition we face is between America and our economic 
competitors around the world.'' Our inland waterways help 
America face that international competition and win.
    If we want to double exports we have to have a way to get 
those exports to market. The waterways have the capacity to do 
that that cannot be matched by our other modes of 
transportation.
    What is at stake if we turn our back on the waterways? If 
we are prepared to turn off the lights in portions of America, 
stop feeding the world, cripple our manufacturing base and 
deprive consumers of essential goods and services, then we can 
stop worrying about the waterways. We can move America's cargo 
without the waterways, but not until we incur billions in the 
costs that it would take to provide highway and rail 
infrastructure to do the job. Not just billions of dollars, but 
we could also measure that cost in lives lost in highway and 
rail accidents, added energy consumption, additional pollutants 
in our atmosphere, congestion delays, and lost competitiveness. 
The waterways make sense for America.
    Many people focus just on the transportation benefits of 
the waterway system, but they sell our system short when they 
do so. Our system provides stable pools of water for 
industrial, municipal, and agricultural use. It provides 
recreational opportunities and enhances property values along 
the waterfronts. Our Nation reaps billions in benefits each 
year from the non-transportation uses of our inland waterways.
    A moment ago I mentioned a comprehensive strategy to 
recapitalize our inland waterway system that was developed by a 
joint Corps-industry team. The report has been out for some 6 
months now, and we have heard some questions and concerns about 
the plan. So I would like to devote my remaining time today to 
tell you some of the things that the plan is and some of what 
it is not.
    It is comprehensive. It is prioritized, and it is long-
term. But it is not all or nothing or take it or leave it. It 
doesn't usurp the prerogatives of Congress, nor does it bind 
Congress to multi-year commitments.
    It is a 20-year plan. It looks forward based on what we 
know today, but it doesn't lock us onto a particular path for 
20 years. We recognize that there will be changes over time, so 
we established an objective framework that will allow the most 
critical projects to come to the top of the list. We envision 
reconvening the Corps-industry team on a regular basis to 
review and update the plan as needed. And every year, Congress 
will have the opportunity to exercise its authority to review 
the recommendations and choose the path forward.
    It does call for a reliable funding stream that will keep 
construction moving forward efficiently.
    We do strongly urge that we first finish what we started, 
then move down the list and only build as many projects at a 
time as we can afford to efficiently fund. In general, once we 
start a project we need to finish it. Otherwise we waste money. 
However, Congress will always have the prerogative to make 
adjustments when the circumstances warrant.
    We recommended a series of process changes to help ensure 
that the projects are completed on time and on budget. The 
Corps is moving ahead with many of these improvements, so we 
will see some benefits in the coming years.
    But to get the full benefit of the efficiencies that are 
possible, we need Congress and the Administration to support a 
comprehensive set of changes such as we have described in our 
report. Over 200 organizations have endorsed the plan. It will 
give us 25 finished projects in the next 20 years instead of 6 
under the status quo. We hope this Committee will help us make 
a comprehensive capital development plan a reality.
    [The prepared statement of Mr. Woodruff follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
   
    Senator Boxer. Thank you very much for that.
    Mr. Jim Weakley, President, Lake Carriers' Association.
    Welcome, sir.

          STATEMENT OF JAMES H.I. WEAKLEY, PRESIDENT, 
                   LAKE CARRIERS' ASSOCIATION

    Mr. Weakley. Thank you, Madam Chairwoman.
    Representing Lake Carriers' Association, Great Lakes 
Maritime Task Force, and the National Coalition, I will be 
focusing on Government trust, jobs, and marine transportation. 
All are vital to America's future.
    Ships enable global and domestic trade. Unfortunately, our 
waterways--the very arteries of coastal infrastructure--barely 
survive a diet of neglect. Our ports fill with sediment faster 
than man or nature can sustain.
    Members of this Committee, Senators Crapo, Klobuchar, 
Vitter, and Voinovich have taken the first step to end the 
national dredging crisis by co-sponsoring S. 3213. Thank you.
    Restoring the trust in the Harbor Maintenance Trust Fund 
benefits all four of our Nation's coasts. California importers, 
Montana and Wyoming coal miners, Oklahoma ranchers, Idaho 
farmers, and Pennsylvania exporters depend on efficient water-
borne transportation to receive goods, move products to market 
and expand their horizons. Marine transportation moves a ton of 
cargo farther, producing fewer emissions than other modes. Our 
Nation's ports handle 2.5 billion tons of domestic and 
international cargo annually, imports and exports worth more 
than $5.5 billion a day. Ports employ over 13.3 million 
Americans, 9 percent of our total work force. Jobs paying $649 
billion in 2007. One billion dollars in exports creates 15,000 
new jobs. Our ports keep America open for business.
    We do it by employing economies of scale. One laker can 
carry as much as 2,800 trucks. And the laws of physics 
requiring less horsepower to move a ton of cargo. If trucks 
were as efficient as ships, they would only need a lawnmower 
engine.
    A lack of dredging forces light loading. For every inch of 
depth lost, lakers forfeit 270 tons of cargo. For each inch 
silted in, American lakers leave 8,000 tons of Minnesota ore in 
Duluth, enough to manufacture 6,000 cars. We leave enough 
Montana or Wyoming coal behind to produce 3 hours of Detroit's 
electricity, or we abandon enough stone for 24 Ohio homes.
    Tragically, losses are measured in feet. The impacts are 
system-wide. This inefficiency makes American products more 
expensive and exports jobs. Dunkirk's port closed in 2005. More 
will follow. Similar problems exist on our other coasts. A 
Corps study estimates 30 percent of the 95,000 vessel calls at 
U.S. ports were limited by inadequate channels.
    Tributaries to the Great Lakes naturally deposit more than 
3.3 million cubic yards of sediment per year. However, only 
once in the past decade has an Administration proposed enough 
money to remove it. An annual investment of $82 million by 
industry via the fund, and $6 million by the Treasury results 
in a transportation rate savings of $3.6 billion.
    On a per-ton basis, the investment of 50 cents results in a 
payback of $41. And the 3 cents that taxpayers invest returns 
$590.
    Established in 1986, the Harbor Maintenance Trust Fund 
collects a tax on cargo value. Industry payments exceed fund 
expenditures. In 2009, $1.3 billion was collected. However, 
only $800 million was expended. Most harbors are left high and 
dry. Annually, we contribute hundreds of millions to this trust 
gap. The fund surplus is $5.1 billion.
    S. 3213 is a solution. Modeled after legal fixes for air 
and highway trusts, it balances annual fund revenues and 
expenditures. Basing future expenditures on future revenues, 
the bill doesn't score or violate the pay as you go rule. 
Future budgets should reduce earmarks for ports abandoned by 
the Administration. Based on AIR-21's results, the top line of 
the Corps' budget should increase. If it had been in place for 
2010, harbor maintenance would have increased by hundreds of 
millions, yet a mere 2 percent of the energy and water 
appropriations.
    I respectfully ask you to pass WRDA and incorporate the 
Harbor Maintenance Act. We need to revive our dying 
infrastructure with the angioplasty of dredging, maintain it 
with a healthy diet. It is a matter of trust.
    Thank you.
    [The prepared statement of Mr. Weakley follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
      
    Senator Boxer. Well said.
    Mr. Steve Verigin, we welcome you to talk about levee 
safety or whatever other issues you want.

 STATEMENT OF STEPHEN W. VERIGIN, P.E., G.E., VICE PRESIDENT, 
GEI CONSULTANTS, INC., AND MEMBER, NATIONAL COMMITTEE ON LEVEE 
                             SAFETY

    Mr. Verigin. Thank you, Chairman Boxer.
    Today I would like to describe the immediate need for 
establishing a national levee safety program and how that 
program would strengthen the current work to upgrade the levee 
system in California, a State with one of the Nation's highest 
flood risks and the one with which I am most familiar.
    The National Committee on Levee Safety was convened in 2008 
at the direction of Congress and mostly comprised of non-
Federal members. Through our work we have learned that our 
levee safety reality is unfortunately filled with risk and 
uncertainty. We don't know how many miles of levees there are 
in the United States. There may be as many as 100,000 miles of 
non-Federal levels in addition to the 14,000 miles of Corps-
owned and operated levees that are currently being inventoried.
    There are no national levee engineering standards. Our 
flood risk is growing due to aging structures, lack of proper 
maintenance, increasing development behind levees, and a lack 
of adequate funding for remediation. Many communities and 
citizens are unaware of their flood risk and believe that they 
will be protected for any size flood. And even our best levees 
that protect against a 100-year flood have a high chance--1 in 
4--to experience a flood larger than that during a 30-year 
mortgage.
    To address this reality the committee made 20 specific 
recommendations. A national levee safety program will be a 
long-term investment, moving us from a reactive disaster 
assistance environment to a proactive, safety-oriented culture. 
The committee believes the need is urgent and is grateful that 
you are considering a national program in the next WRDA.
    We understand that in these difficult economic times it is 
not feasible to immediately implement all the recommendations 
in the strategic report. It is, however, timely that we take 
action so that we don't lose the momentum, efforts, and 
accomplishments that we realized from the now not so recent 
events of Hurricane Katrina and the flooding of New Orleans.
    The 2009 report to Congress proposed a phased schedule for 
implementation. In keeping with that strategy we would like to 
propose the highest recommendations as inclusion in the next 
WRDA. First, to expand and maintain the national levee data 
base by conducting an inventory and inspection of all levees in 
the United States, namely, those outside of the U.S. Army 
Corps' of Engineers authorities.
    Establish a national levee safety program likely embedded 
in an existing Federal agency. Develop national levee safety 
standards, including tolerable risk guidelines and a hazard 
potential classification system, and swiftly address growing 
concerns regarding liability for damages resulting from levee 
failures. This is important, as there is concern that States 
will be reluctant to take on levee safety programs for fear of 
additional liability.
    Furthermore, we think that WRDA should authorize the 
implementation of the next highest priorities, and that would 
be to design and incentivize the development of State levee 
safety programs and to establish the National Levee 
Rehabilitation Improvement and Flood Mitigation Fund.
    For the past 6 months the committee has been soliciting 
feedback from a variety of stakeholders. We have received the 
following major comments. A complete national inventory of all 
levees is all necessary to understand the Nation's risk and 
effectively prioritize program needs. A national levee safety 
program should support good flood risk management. A national 
levee safety program should simplify, streamline, and align 
State, Federal, and local programs. Funding for remediation of 
existing aging and deficient levees is needed and necessary to 
attract State and local government to a national program.
    Some stakeholders are concerned over the impacts of 
requiring risk-based insurance, and there needs to be more 
dialog to ensure that needed operation, maintenance, and 
repairs can occur in a timely fashion without compromising 
environmental regulations.
    I would like to complete this testimony by describing some 
of the specifics in California and how the new program would 
apply. California's Central Valley is one of the Nation's 
largest Federal levee systems, 1,600 miles in length with 
generally fragile levees, not up to the task of protecting the 
600,000 people and $50 billion of infrastructure behind them. 
At the downstream end of the system lies the Sacramento-San 
Joaquin Delta, also with many fragile levees vulnerable to 
earthquake damage that would severely interrupt the water 
delivery to 24 million Californians. And Sacramento, in the 
heart of the Central Valley, is the Nation's leading major city 
that is at most risk of a New Orleans-type flooding event. 
Consequently, California voters approved $4.9 billion in State 
funds, mostly for Central Valley region.
    Implementation of a national levee safety program will 
greatly assist California in inventorying and assessing the 
condition of all of the State's estimated 14,000 miles of 
levees. By having national standards, rehabilitation and 
improvement projects will be designed and constructed 
consistent with Corps, FEMA and other flood management 
agencies. The National Levee Safety Program will provide the 
leadership that will guide the State toward achieving future 
compliance for projects currently underway in formulating the 
future California State levee safety program.
    In recent years California has developed the capability to 
construct major flood repair and improvement projects with 
funding from State bonds and local property assessments. 
However, the $4.9 billion in State bond funds is not adequate 
to meet all of the need. California is well-poised to utilize 
funding from the National Levee Rehabilitation Improvement and 
Flood Mitigation Fund to complete the job.
    To reinforce the urgent need for establishing a national 
levee safety program, I have attached news clips from the 
recent Iowa flooding in August and the Wisconsin flooding in 
September. Both events caused severe damage and levee failures 
and remind us that we should not grow complacent.
    Thank you.
    [The prepared statement of Mr. Verigin follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Boxer. Thank you very much, Mr. Verigin.
    And Mr. Roth, again, welcome to you, speaking on behalf of 
the American Society of Civil Engineers. Welcome.

  STATEMENT OF LAWRENCE ROTH, SENIOR VICE PRESIDENT, ARCADIS 
                           U.S., INC.

    Mr. Roth. Thank you, Madam Chair.
    My name is Larry Roth, and I am a project manager for 
ARCADIS in Sacramento. The firm is currently the independent 
consultant for review of the Bay Delta Conservation Plan for 
California's Delta Stewardship Council. I am a civil and 
geotechnical engineer, specializing in water resources. I have 
worked on the design and construction of more than 50 major 
dams throughout California and the U.S.
    I am pleased to appear before you to day to testify on 
behalf of the American Society of Civil Engineers on the need 
for a Water Resources Development Act in 2010. ASE's 2009 
Report Card for America's Infrastructure shows that decades of 
under-funding and inattention have jeopardized the ability of 
our Nation's infrastructure to support our economy and our 
quality of life. The report card assumed a cumulative grade of 
D to the Nation's infrastructure. It noted that a 5-year 
investment of $2.2 trillion from all levels of Government and 
the private sector was needed to bring our infrastructure into 
good condition. About half that sum will be available with 
present Federal, State, and local spending, leaving an 
infrastructure investment gap of about $1.1 trillion through 
2014.
    The Congressional Budget Office states that spending on 
infrastructure produces positive economic returns. The CBO 
notes that a recent study suggests that public capital enhances 
the economy's ability to produce goods and services to the 
extent that $1 spent on infrastructure generates close to $1 of 
output within 1 year. Current economic and political conditions 
notwithstanding, we all recognize that the path forward will be 
expensive. But Federal and local investments in essential 
public works can create jobs, provide for economic growth, and 
ensure public safety through modern, well-engineered national 
infrastructure.
    Levees received a D minus. More than 85 percent of the 
Nation's estimated 100,000 miles of levees are locally owned 
and maintained. The reliability of many of these levees is 
unknown. Many are more than 50 years old and were originally 
built to protect crop and farm land from flooding.
    Congress must move quickly to enact Federal legislation to 
protect the health and welfare of American citizens from the 
catastrophic effect of flooding and levee failures. The levee 
safety program should be modeled on the successful National Dam 
Safety Program. The Act should require that Federal and State 
governments conduct mandatory safety inspections for all levees 
and establish a national inventory.
    The National Flood Insurance program should map all areas 
potentially flooded by a levee breach and identify them as 
special flood areas to better communicate risk and encourage 
affected property owners to seek appropriate protection. The 
Committee should add S. 732, the Dam Rehabilitation and Repair 
Act, as a separate title within WRDA 2010. Senator Akaka's bill 
would amend the National Dam Safety Program to provide a modest 
yet critical $200 million over the next 5 years for repairs and 
rehabilitation or removal of non-Federal, publicly owned, high 
hazard dams in the United States.
    The Committee should support legislation similar to H.R. 
5892, which contains a provision requiring that all 
appropriations from the trust fund each fiscal year should be 
equal to all revenues received by the fund in that year. In the 
face of the Corps' aging infrastructure need, the President's 
budget for a civil works program in fiscal year 2011 continues 
to reduce Federal investments in essential national civil works 
systems. The budget proposal totaled only $4.9 billion, a 
reduction of 9.3 percent from fiscal year 2010 enacted level of 
$5.4 billion. The Administration request represented a 51 
percent decrease from the fiscal year 2009 enacted total of $10 
billion through regular appropriations and the American 
Recovery and Reinvestment Act. This trend is not likely to 
improve in future years.
    ASE believes that these levels of spending are inadequate 
to meet the Nation's security as well as its economic and 
environmental demands for the 21st century.
    This concludes my testimony, Senator Boxer. I would be 
pleased to answer any questions.
    [The prepared statement of Mr. Roth follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  
    
    Senator Boxer. Thank you.
    Let me state that I am going to add myself today as a co-
sponsor to the Levin bill, S. 2312. And the sponsors there 
include, in addition to Senator Levin, Mrs. Hutchison, Mr. 
Vitter, Ms. Stabenow, Mr. Shelby, Ms. Collins, Mr. Brown of 
Ohio, and Ms. Landrieu. This is a very bipartisan effort.
    I hope that--I haven't discussed this directly with Senator 
Inhofe, but I am hopeful that he will agree with us that we 
should put that bill straight into WRDA as a title, the Harbor 
Maintenance Trust Fund, to ensure its use for harbor 
maintenance only. It just makes eminent sense. So I want you to 
know that that will be done today.
    I also ask unanimous consent to enter into the record a 
letter from the California Marine Affairs and Navigation 
Conference on the need for increased investment in the 
California ports and expenditures of revenues collected in the 
Harbor Maintenance Trust Fund on harbor maintenance activities. 
And I have just a couple of questions to ask. My time should be 
put at about 3 minutes now.
    I am very pleased to look forward to passing a WRDA bill. 
It is not only necessary for economic--well. I have shown 
photographs here of the Sacramento situation, which Mr. Verigin 
has described to us. So I am just going to submit a couple of 
questions for the record.
    [The referenced letter follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
    Senator Boxer. In addition to the 13 million jobs that the 
port industry supports and the $3.15 trillion in marine cargo-
related spending, I am looking at the importance of averting a 
crisis. I want to talk about the levee safety program, which is 
another title that I intend to work with Senator Inhofe on 
putting in this bipartisan bill, this program to look at levee 
safety.
    I want to ask Mr. Verigin, can you expand on the benefits 
we can expect for cities across the country--including 
Sacramento as an example--if we move forward with a WRDA bill 
that begins to address the recommendations of the National 
Committee on Levee Safety, which is my intention?
    Mr. Verigin. Yes, thank you. The Natomas area in Sacramento 
is a good example and would apply to many cities across the 
country. It is a city that has levees that protect it that have 
gone from the purpose of protecting agricultural land to now a 
highly urbanized area. It is also an area with a system that 
has been subject to changing standards. Those levees weren't 
designed or constructed by the current standards that are 
required for the levee systems that protect urban areas, both 
in dimension, foundation, improvements, et cetera. Those design 
criteria continue to evolve. So a national program would 
standardize that type of criteria and make it uniform across 
the country.
    It is Federal levee system that is currently being--the 
improvement project is being funded by State and local funds. 
And the implementation of this program would hopefully 
streamline the process where in Federal, State, and local 
projects could be more expediently accomplished. It would allow 
the State's economy to continue to grow. California is a place 
where the population keeps coming. They are not waiting to see 
if the levees are safe to protect the areas. So it is an area 
that has already urban areas developed behind levees. So we 
have to upgrade them and protect the valuable investment that 
we already have.
    Last, it would definitely avoid the tremendous catastrophic 
loss that you mentioned. We are at great risk there. We have 
levees that are not up to 100-year standard. Most levees 
protecting areas of this importance would be 200- or 500-year 
level of protection.
    Senator Boxer. Thank you, Mr. Verigin.
    Before I turn to Senator Vitter, would you do me a favor? 
Would you send me a report that indicates how many of those 
levees have a Federal nexus and how many are State, local? If 
you could do that, that would be very helpful.
    Mr. Verigin. Yes.
    Senator Boxer. Thank you.
    Senator Vitter.
    Senator Vitter. Thank you, Madam Chair. Thanks to all of 
you again for great testimony.
    Mr. Woodruff, I wanted to ask you a couple of things about 
the Inland Waterways' proposal. The costs of these projects and 
this maintenance has been going through the roof. One way this 
proposal would obviously control that is by not allowing 
projects to languish forever, over decades, over which 
obviously costs go up and up and up.
    But apart from that time factor, are there other specific 
ways the proposal controls costs under Corps projects? I can 
tell you my experience in Louisiana, it is mostly on the flood 
and hurricane protection side; is that the same work up to the 
same standards overseen and done through the Corps process is 
much more expensive than overseen and done by State or local 
government. So there are other factors there besides time. How 
can we try to attack those other factors?
    Mr. Woodruff. The plan includes a number of things that we 
can do. Better planning, having a better understanding of what 
the project scope is, what the geotechnical requirements are 
before we come to Congress and seek authorization for a 
project, so that when we bring that project to you it will have 
a very high confidence level that the project can be brought in 
for the amount of money that you authorize that it be built 
for.
    There is project delivery improvements--some of which are 
already underway--to standardize some of the design features of 
locks and dams, to have centers of expertise that will allow us 
to develop some synergy and save money in terms of not having a 
lock designed in one place have components that are different 
than locks designed in another place. Modularity of design will 
also save money. Smoothing out the funding will have a great 
effect in terms of allowing those projects to be built at the 
most efficient way possible. To give an example would be the 
project on the East Bank, which has been done very quickly, on 
time and on budget. The money was there for it to be done, and 
as a consequence, it was done.
    Those are some of the things that we think can be done to 
ensure that these projects will cost the Nation less in the 
future. They must cost the Nation less in the future.
    Senator Vitter. OK. On both sets of fund proposals, the 
Corps has obviously been involved in the discussions. Can we 
expect the Corps/Administration to take an affirmative position 
in support of these proposals, and when will that happen?
    Mr. Woodruff. Well, from my perspective, the Users Board 
presented this to the Administration back in April, and we are 
still waiting to learn their position on it. We are eager to 
hear what that position will be. We think this is a sound plan 
that needs to move forward. Because we can't start gaining the 
benefits that are there to be gained until we do so.
    Senator Vitter. Do you realistically expect the Corps/
Administration to take an affirmative position in support of 
it?
    Mr. Woodruff. I would certainly hope so. We worked very 
long and very hard with a lot of experts in the Corps to 
develop this plan. We think it is sound. We think it is the 
right path forward for the Nation.
    Senator Vitter. Mr. Weakley, what about the Harbor 
Maintenance Trust Fund?
    Mr. Weakley. Senator, my experience will be the Corps will 
do what the Administration tell it to do publicly. I would hope 
they would affirmatively support this. The Corps can only do 
what they are given money to do. So I think, candidly, with the 
AIR-21 experience, their top line would increase. I don't see 
how the Corps could oppose it. I am not sure, once you get to 
the OMB level and above, whether the Administration would 
support this.
    Certainly, as you pointed out, sir, it is a fairness issue. 
I think also Senator Inhofe considered it a moral issue. If you 
are going to collect money for a reason, you ought to spend it 
on that reason.
    Senator Vitter. Right. I would encourage all of us to push 
the Corps and the Administration, and you are right, the 
ultimate decision will be made above the level of the Corps, to 
affirmatively support the proposals. Because it is a very 
common, frustrating experience of mine to work with the Corps 
on all sorts of language, and then when it comes to 
legislating, they are either nowhere to be seen or actively 
opposing the proposal with the key committee chairs or 
subcommittee chairs or whatever.
    So I think it is reasonable for us to ask them for a direct 
public position, hopefully in support of the proposals.
    Mr. Weakley. Yes, Senator. I would agree.
    Senator Vitter. And if I could just have one more, Madam 
Chair, for Mr. Verigin.
    Representing Louisiana, I am obviously all for levee 
safety. And clearly, certain standards have to be raised. But 
since Katrina I have also had the following experience, which 
is in some cases the Corps and others have proposed the 
perfect, and it has been the enemy of the good. In a sense, 
from the bureaucracy's perspective, from the Corps' 
perspective, the safest levee is the one that is never built. 
They almost in some cases have an interest in having standards 
so demanding and so perfect that lots of levees are never 
built. And the one levee that can never breach is the one that 
is never built.
    I am just wondering how we balance these interests, because 
I have experienced that as a real problem post-Katrina.
    Mr. Verigin. Yes, that is a balance that we struggle with 
all the time. I think we have to realize that these levees have 
evolved over 70 to 100 years. So while if today we could decide 
not to build or build out of the flood plain or setback or do 
many of the things that would keep people out of harm's way, 
that would be a wonderful thing to do. But that is not the 
situation that we are in. We have highly urbanized areas with 
levees protecting them.
    So we have to take measures to get those up to standards 
that are going to protect people. And that, too, has to be 
done, in my opinion, in balance over time. We can't afford to 
do everything we want to do right away. So we need to 
identify--and it is advocated through assessing our highest 
risks--where we need to improve things, how far we can go and 
to actually develop a plan that is going to take decades to 
move us from where we are today to where we want to be.
    Senator Vitter. And I just note that part of that is in 
that transition. In the meantime, I don't think it is fair to 
take the current FEMA and Corps position that a levee system 
that is a meaningful system but doesn't match the new 100-year 
whatever requirements are treated as if it doesn't exist for 
purposes of flood insurance.
    Mr. Verigin. Yes, that has been a singing to the choir 
problem that has caused communities to struggle across the 
Nation, and I think will continue to do so. But I think that 
the answer to that is to improve things with time.
    Senator Vitter. Thank you, Madam Chair.
    Mr. Roth. May I add something to Mr. Verigin's comments?
    Senator Boxer. Yes.
    Mr. Roth. I think this issue of risk is extremely 
important.
    Senator Boxer, I would like to just relate a personal 
experience.
    Senator Boxer. Sure.
    Mr. Roth. I have been here in the Washington, DC, area for 
the past decade with the American Society of Civil Engineers. I 
am moving back to California. And in this case, well, I am 
actually there now. But in the process of moving back to 
California, my family and I purchased a home in California and 
went through the process, knowing that it is one of the more 
flood risk-prone cities in the United States.
    Senator Boxer. Sacramento?
    Mr. Roth. Sacramento. Knowing full well that we wanted to 
avoid that as much as possible in the purchase of our own home. 
It is exceedingly difficult, particularly for an uninformed 
buyer, to find out what that level of risk might be for 
property that they are going to sink essentially their life 
savings into.
    I think it is extremely important for us to look at not 
only the levee safety issues and to provide the levels of 
protection, but to communicate them extremely clearly to the 
public. Because Senator Vitter, often the public is not 
informed that they are living behind a levee that may be 
substandard, that may not be able to protect them from a 100-
year flood. And a substantial portion of their life's savings 
are being put at risk.
    The alternative is perhaps flood insurance. It may be a 
difficult pill to swallow, but maybe that is the right way to 
go. So we really must take a holistic approach to this. We have 
to provide a level of safety for people. But we then absolutely 
must communicate to them what that level of risk that they may 
be accepting is or is not.
    Senator Vitter. And Madam Chair, let me just say quickly, I 
don't disagree with any of that. What I disagree with is that 
the flood insurance program, acting as if a system which may be 
below, say, a 100-year level, doesn't exist. The current policy 
is to treat that as if there is nothing there. Clearly, there 
is something there that offers some mitigation.
    Senator Boxer. That is true of our flood insurance, isn't 
it, that it only address the 100-year.
    Senator Vitter. Right.
    Senator Boxer. Senator Merkley.
    Senator Merkley. Thank you very much, Madam Chair, and 
thank you all for your testimony today to highlight the 
importance of these projects. Along Oregon's coast, there are 
along 20 ports that provide employment, and they are part of a 
global supply chain and important sources of recreation and 
wildlife habitat. And of course these ports need consistent 
maintenance and repair schedules.
    By the Corps' own data, Oregon has nearly 200 communities 
and 24 counties with levees that will need recertification. I 
can hardly go to a town hall and not have someone speak about 
the challenges to the community from the recertification 
process, the changes therein, particularly on communities of 
modest size facing extraordinary expenses under the changes in 
recertification process.
    Mr. Woodruff, I wanted to ask you about the inland marine 
transportation system capital investment strategy team's 
proposal. How would you prioritize the annual investment across 
the inland water system of the U.S.? The highest needs may not 
be in communities that can afford a match. How do you tackle 
that problem?
    Mr. Woodruff. The match in this case comes from the fuel 
taxes paid by the industry across the entire system. So the 
communities wouldn't be asked for a match. What we look at is 
the system as a national whole, and we prioritize on the basis 
of the risk of failure and the economic impact that would be 
associated with it. Then we use the resources of the Inland 
Waterway Trust Fund collected across the entirety of the system 
to address those needs.
    Senator Merkley. Can you give us a sense of how the jobs 
created per dollar of investment compare to other investments 
around the country?
    Mr. Woodruff. I don't know that I can necessarily give you 
a comparison. But I think it is important to recognize that we 
are not just looking at the jobs we create by building and 
maintaining the infrastructure, but the jobs that we sustain 
and maintain through the low cost transportation opportunities 
that the system provides to us. For example, in the case of 
agriculture we have competitors in South America. The price 
that the Chinese or other consumers want to pay is the price 
delivered to their doorstep. Our inland waterway system allows 
us to provide the lowest cost delivered to our customers, and 
therefore that sustains not just the jobs building and 
maintaining locks but the farmers and all those who support the 
farmers.
    Senator Merkley. And with substantial energy savings as 
well.
    Mr. Woodruff. Absolutely.
    Senator Merkley. Which is a big plus.
    Mr. Weakley, your testimony highlighted the Harbor 
Maintenance Trust Fund surplus, and the HMTF collected $1.3 
billion in 2009. Yet only $808 million was reimbursed through 
regular appropriations. Presumably, that leaves a surplus in 
excess of $1 billion for harbor maintenance.
    What are the current backlogs in harbor and port 
maintenance across the U.S.? And if all the revenues collected 
were spent, how much of an impact would it make on that 
backlog?
    Mr. Weakley. Senator, it would basically double the amount 
of money spent on an annual basis. Two thousand-nine was a 
robust year. Annually, they spend about half of what they take 
in. On a national basis, I don't know the number. I can tell 
you from a Great Lakes perspective the current backlog is about 
17 million cubic yards. It would take about $200 million to 
clear that.
    And remember, that just gets us back to what they call 
functional dimensions, not authorized dimensions. You could 
probably double that number. And I think the gentleman sitting 
to my right nailed it; it is about efficiency. We save the 
American consumer just within the Great Lakes navigation system 
$3.6 billion. Should the American consumer be asked to pay $3.6 
billion more to get nothing other than what they are already 
getting, efficient transportation?
    Senator Merkley. So it sounds like you would recommend 
spending that surplus to tackle these needed repairs, 
maintenance, efficiencies, and thereby we would also be 
creating jobs during this difficult period.
    Mr. Weakley. Absolutely, Senator. And it is a nationwide 
problem. All four of our coasts need dredging. Oakland in 
particular I know is in need of maintenance dredging. As ports 
get deepened, that increase goes up. But on the Great Lakes we 
are not talking about deepening anything. We are talking about 
taking a two-lane highway and restoring the four lanes of 
usage.
    Senator Merkley. Thank you.
    Madam Chair, is it appropriate for me to ask one more 
question?
    Senator Boxer. You can, in fact, because we still have 
time, yes.
    Senator Merkley. Mr. Roth, I want to turn to the issue of 
the levee certifications. First, just note that the change in 
law with the Corps no longer taking on those certifications, 
has imposed extraordinary stress on numerous communities in 
Oregon. I am certainly not satisfied that we have a strategy to 
address those recertifications. The situation now is such that 
there is a sense of paralysis on the ground, trapped between 
the requirement to decertify and the absence of a financial 
strategy to be able to do so. How do we tackle this?
    Mr. Roth. This is certainly a very complex problem, and 
extends well beyond, in many cases, just the amount of money 
that might be required to evaluate a levee system and provide a 
certification for as required under the NFIP. Certification is 
also an extremely loaded word in the consulting engineering 
community. For a professional engineer to certify a levee, it 
may be interpreted that that engineer is also essentially 
providing a guarantee that the levee is going to perform, and 
in many cases perform in excess of what it otherwise might be 
expected to have performed in the event that a disaster has 
occurred.
    I would certainly suggest we have to take a hard look at 
that. We need to look at whether the certification process is 
the right way to go about evaluating the safety of a levee 
system for a particular community. We need to include, as I 
mentioned before, a comprehensive communication program so that 
people know and understand the risk that they may be accepting, 
that they may be living with--and in many cases have lived with 
for a long time--not knowing what their level of risk truly 
was.
    And we should be looking at it very comprehensively. In 
many cases it may be wiser to use other kinds of flood 
reduction systems besides structural systems, such as levees. I 
would ask if my colleague, Mr. Verigin, might want to add to 
that.
    Mr. Verigin. Certainly. Certification was designed to be an 
activity with respect to flood insurance, not level of levee 
protection. So the Corps is doing it or not doing it for non-
Federal levees is the development I believe that you are 
talking about.
    So the way that I have seen it work in the States in the 
west that I have been involved with is that where the Corps is 
no longer doing the engineering studies to provide the 
certification for non-Federal levees, the communities or the 
agency has solicited on their own for A&E firms, or with their 
own forces, to do the work for certification. And so the 
culminating point of certification is either that you have or 
you do not meet the requirements for 100-year level of 
protection. Then that affects the amount of the premium that 
the homeowner would have to pay behind the levee. It also 
carries with it some building restrictions if you don't have a 
100-year level of protection. This current work that we have 
done with the committee has been more toward, as Larry 
mentioned, in the direction of informing people of the level of 
risk they have irrespective of where they are within that 
insurance continuum.
    Senator Merkley. What I hear repeatedly from communities 
back home is that the Corps was able to provide this 
engineering certification far more cheaply, efficiently, and 
they are being forced into a far higher cost of solutions. 
Should we shift this responsibility back to the Corps?
    Mr. Verigin. Actually, the Corps in the certification 
process, they do say that you can hire them to do that 
certification if a community chooses to do that. I would 
comment that they have recently--it was a technical letter 
which I think has gone on to an engineering, an EC, I forget 
what the nomenclature stands for, but a standard approach that 
some of their technical evaluations for certification have 
become--have raised the standard a bit. So it may or may not be 
something that a community would wish to pursue.
    Senator Merkley. Mr. Roth.
    Mr. Roth. I don't think it is necessarily something that 
should be shifted back to the Corps. First of all, it is, as 
you noted, a very large problem affecting a large number of 
communities. I think the recommendations that have been put 
forth by the National Levee Safety Committee, if many of those 
are implemented, that would provide an appropriate road map for 
us to follow. Then the work can be done by both the private 
sector and the Corps to achieve the needs of these communities 
that are being protected by levee systems.
    Senator Merkley. Thank you.
    Thank you, Madam Chair.
    Senator Boxer. Thank you very much.
    I would ask unanimous consent to place in the record 
testimony from the Association of State Dam Safety Officials 
and the American Shore and Beach Preservation Association, who 
gave us their views on issues related to the next WRDA bill. 
Without objection, we will put that in the record.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    Senator Boxer. I also just wanted to thank you, Senator 
Merkley, for coming. Before you arrived--I am just very 
optimistic that we can get this done. Senator Inhofe and 
Senator Vitter I felt were very positive on this, and Senator 
Cardin, you. I am feeling good about this. At a time when 
people say, can we work together, there are areas where we can 
work together. WRDA is a classic case in point.
    Very few bills historically that passed the Senate and the 
House and went to the President and were vetoed were 
overridden. WRDA was one of those bills that Senator Inhofe and 
I teamed up to override a George W. Bush veto. We did it 
because this is such an important program. It is important 
because as was so pointedly stated by Mr. Roth, as he confronts 
buying a home, being concerned, we need to address flooding. We 
need to address the movement of cargo. We need to address 
safety; we need to address the economy. And all that is done in 
WRDA.
    I think that this S. 3213, which restores that trust fund 
for its stated purpose, is a very good thing to pull both sides 
together. I think most of us agree--I haven't checked with 
everybody, but I think most of us agree--trust funds should be, 
as Mr. Weakley said eloquently, for the purpose for which they 
were intended. That is why we set them up.
    And if we raid trust funds it is not fair to the people who 
have paid the fee into the fund. So I think that is going to be 
a very central piece of our bill, and also levee safety, which 
all of you have spoken so eloquently, particularly Mr. Verigin 
and Mr. Roth.
    So I am--at a time when people are pessimistic that things 
can get done, I am optimistic that we can get a WRDA bill done. 
I am optimistic, from what I have heard from colleagues on both 
sides. So I want to thank this panel. You have been terrific, 
very direct, very clear. We really appreciate your testimony 
today.
    The vote has started, so we will now stand adjourned. Thank 
you.
    Let the record show that it is Senator Inhofe's birthday 
and Bettina Poirier's birthday, as well. That is why they are 
such good friends, born on the same day.
    [Laughter.]
    [Whereupon, at 11:07 a.m., the hearing was concluded.]

                                 [all]
</pre></body></html>
